<html>
<title> - INSTALLATION OF IN-LINE BAGGAGE SCREENING SYSTEMS: INCREASING SAFETY AND EFFICIENCY FOR TRAVELERS TO AND FROM OUR NATION'S CAPITAL</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 INSTALLATION OF IN-LINE BAGGAGE SCREENING SYSTEMS: INCREASING SAFETY 
     AND EFFICIENCY FOR TRAVELERS TO AND FROM OUR NATION'S CAPITAL

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 17, 2006

                               __________

                           Serial No. 109-123

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform

                                 _____

                     U.S. GOVERNMENT PRINTING OFFICE
                             WASHINGTON: 2006        
26-330 PDF

For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001



                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
JON C. PORTER, Nevada                C.A. DUTCH RUPPERSBERGER, Maryland
KENNY MARCHANT, Texas                BRIAN HIGGINS, New York
LYNN A. WESTMORELAND, Georgia        ELEANOR HOLMES NORTON, District of 
PATRICK T. McHENRY, North Carolina       Columbia
CHARLES W. DENT, Pennsylvania                    ------
VIRGINIA FOXX, North Carolina        BERNARD SANDERS, Vermont 
JEAN SCHMIDT, Ohio                       (Independent)
------ ------

                      David Marin, Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel



                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 17, 2006................................     1
Statement of:
    Null, Randy, Ph.D., Assistant Administrator for Operational 
      Process and Technology, Transportation Security 
      Administration; James E. Bennett, president and chief 
      executive officer, Metropolitan Washington Airports 
      Authority; and Timothy L. Campbell, A.A.E., executive 
      director, Baltimore/Washington International Thurgood 
      Marshall Airport...........................................    10
        Bennett, James E.........................................    16
        Campbell, Timothy L......................................    23
        Null, Randy..............................................    10
Letters, statements, etc., submitted for the record by:
    Bennett, James E., president and chief executive officer, 
      Metropolitan Washington Airports Authority, prepared 
      statement of...............................................    19
    Campbell, Timothy L., A.A.E., executive director, Baltimore/
      Washington International Thurgood Marshall Airport, 
      prepared statement of......................................    26
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    49
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     3
    Mica, Hon. John L., a Representative in Congress from the 
      State of Florida, prepared statement of....................    46
    Null, Randy, Ph.D., Assistant Administrator for Operational 
      Process and Technology, Transportation Security 
      Administration:
        Strategic plan...........................................    35
        Prepared statement of....................................    12

 
 INSTALLATION OF IN-LINE BAGGAGE SCREENING SYSTEMS: INCREASING SAFETY 
     AND EFFICIENCY FOR TRAVELERS TO AND FROM OUR NATION'S CAPITAL

                              ----------                              


                       FRIDAY, FEBRUARY 17, 2006

                          House of Representatives,
                            Committee on Government Reform,
                                                Dulles Airport, VA.
    The committee met, pursuant to notice, at 10:15 a.m., at 
the Conference Room in the Airport Conferencing Suites Lower 
Level Baggage Claim Area, Dulles Airport, Hon. Tom Davis 
(chairman of the committee) presiding.
    Present: Representatives Tom Davis, Watson, and Norton.
    Also present: Representative James Moran of Virginia.
    Staff present: Jennifer Safavian, chief counsel for 
oversight and investigations; Brooke Bennett, counsel; Rob 
White, press secretary; Drew Crockett, deputy director of 
communications; Teresa Austin, chief clerk; Sarah D'Orsie, 
deputy clerk; Michael Galindo, research assistant; Michael May, 
legislative assistant; Bill Womack, legislative director; and 
Michael McCarthy and Kimberly Johnson Trinca, minority 
counsels.
    Chairman Tom Davis. Before we begin today I would ask 
unanimous consent to allow Mr. Moran to participate in today's 
hearing. Without objection, so ordered. Jim, welcome. We are 
glad to have you here, as always.
    Mr. Moran. Thank you, Tom. Thank you. Nice to be with you.
    Chairman Tom Davis. The committee will come to order. Good 
morning. Welcome to today's hearing on the in-line checked 
baggage screening systems.
    Immediately after the September 11th, attacks, Congress 
mandated explosives screening for all checked baggage by 
December 31, 2002. To meet this tight deadline the 
Transportation Security Administration deployed explosives 
detection systems and explosive trace detection machines in 
airport check-ins around the country.
    As we have just seen upstairs, the stand-alone EDS machines 
are large and create congestion in airport terminals. They 
require substantial human operation and can process at best 180 
bags per hour. The smaller EDT machines are even more labor 
intensive. It can process only 36 bags per hour. With the 
technology available today, that simply is not good enough. The 
flying public is growing inpatient.
    Right here at Dulles Airport, according to a July 2005, 
Washington Post article, one airline reported that their 
flights were being delayed as much as 45 minutes because of the 
limited number of baggage screening machines. Other airports 
report delays because they are required to share baggage 
screening equipment with eight other airlines, and that's 
equipment that can screen only 100 bags per hour.
    We look forward to hearing further about Dulles and Reagan 
airports from Mr. Bennett and how the Metropolitan Washington 
Airports Authority is addressing the concerns of its air 
carriers and passengers. But I'm sure that these delays are not 
unique to Dulles.
    One of the solutions to these delays is better leveraging 
of technology. We are now on to the next generation of 
screening machines and processes. Baggage screening is being 
integrated into baggage conveyer systems.
    In-line screening systems increase baggage screening from 
180 bags per hour to more than 450 bags per hour. And, reducing 
the current level of human interaction with the baggage saves 
TSA money in personnel costs and workers compensation.
    Baltimore/Washington International Airport now has a full 
in-line system which went online in 2005. BWI now has the 
capacity to screen up to 2,400 bags per hour and we look 
forward to hearing from Mr. Campbell about the increased 
efficiencies at BWI.
    We understand that moving baggage screening in-line is 
neither a small task nor a cheap one. We gave TSA authorization 
to help finance airports' installations of in-line systems. 
Under this letter of intent program TSA pays for 100 percent of 
acquisition and installation of screening machines and for 75 
percent of the airports' facilities modification costs.
    Studies by the Government Accountability Office and TSA 
demonstrate that even in the short term, installation of in-
line screening systems capacity practically pays for itself. 
However, even though TSA's program has been in effect for only 
3 years, only 116 of the Nation's 451 airports have EDS 
machines and only 12 of these airports have fully in-line 
systems. The remainder are partially in-line or stand-alone.
    The purpose of today's hearing is to understand why TSA's 
funding of in-line systems has stalled and what steps TSA is 
taking toward putting more in-line systems in airports to 
improve airport safety and efficiency.
    Also, given the expense of installing in-line baggage 
systems, we want to understand how TSA is prioritizing which 
airports will receive Federal assistance and what funds are 
actually available.
    We look forward to hearing today from Dr. Randy Null, the 
Assistant Administrator for Operational Process and Technology 
at TSA regarding the status of TSA's letter of intent program 
and the creative financing solutions that they are pursuing. We 
also look forward to hearing about TSA's forthcoming EDS 
strategic plan, which prioritizes airports for in-line 
installations.
    Before we hear from our witnesses however, the committee 
would like to express our gratitude to Dulles Airport and MWAA 
for hosting today's hearing and for providing us this morning's 
tour of Dulles' baggage screening process areas.
    [The prepared statement of Chairman Tom Davis follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Tom Davis. I would now recognize Ms. Norton for 
her opening statement.
    Ms. Norton. Thank you very much, Mr. Chairman, and I very 
much appreciate your calling this hearing. I was aware that 
Dulles did not have the integrated machines because this area 
is really in the primary jurisdiction of two of my other 
committees, Homeland Security and Transportation.
    I was not aware why and I'm still not sure I am. Clearly 
BWI benefited from having at least one of its facilities in the 
process of being built, which may have helped to jump start 
their receipt of integrated machines. But when you consider 
that these in-line systems quickly pay back the cost and 
drastically reduce the number of screeners that are necessary, 
I really don't understand why the cost effective integrated 
machines would not be moving forward.
    I must say, what I saw this morning could only be called 
primitive. We have moved backward with people down in the 
bowels of Dulles having to lift, after we have a beautifully 
automated way of getting the baggage through the traditional 
screening, then having to go through another screening out in 
the lobby, or down below.
    As I understand, I remember the controversy when Homeland 
Security Department was set up about non-unionization. But I 
learned today that in the summer it can be 100 degrees down 
there, only with fans, with no air conditioning, and people 
having to pick up bags, manually pick up bags.
    So what we have instead of an integrated system, which 
would do these things automatically, it is a system which costs 
more, more screeners, producing workman compensation expenses 
for the government, truly going backward after we thought we 
were making progress. I think by exposing this and learning 
more about it today in this hearing we will be prepared to go 
back to the relevant committee and perhaps get some progress.
    We would think that the place to begin would be in an 
airport like this, from which one of the September 11th planes 
started. Obviously risk analysis did not have to do with how 
these integrated machines were located and it is perfectly 
understandable that if you are building a facility you would 
want to start there because it is cheaper.
    What is not understandable is why you would not move 
quickly, why the Federal Government would not move quickly to 
install integrated machinery in other places given the speed 
with which they can recoup the investment and reduce labor 
costs. Thank you again, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Mr. Moran.
    Mr. Moran. Thanks very much, Tom, for inviting me to 
participate in this hearing. More importantly, thank you, Mr. 
Chairman, for addressing this issue. It clearly is a Federal 
issue.
    The Congress went ahead and mandated that every bag be 
checked. I am not sure we gave a whole lot of thought to how 
that was going to be done, nor how much it was going to cost. 
That is somebody else's problem.
    But you could rest assured that if it was not done, we 
would be the first ones criticizing it for not being done, 
particularly if something slipped through that turned out to be 
an explosive device or whatever.
    The airlines and the airports have had a terrible time the 
last 4 years. After September 11th it looked bleak. Of course 
with all the deregulation and all, a number of airlines have 
folded; they have gone bankrupt.
    But here at Dulles, Dulles International Airport, and at 
our Nation's National Airport, there has been a recovery, a 
very substantial recovery. We are now looking at 45 million 
passengers, almost 18 million at National Airport and about 27 
million, I understand, at Dulles. We thank the people running 
the airport and the airlines for getting our economy back on 
its feet.
    But our government is not keeping pace with this growth. In 
fact the reason we are having a hearing is that in some ways we 
may actually be impeding future growth by failing to employ the 
best and the most effective security measures. Despite 
technology that is proven not only to be much more cost 
effective and efficient, but actually improving airport safety 
and security, our government has not moved forward in a timely 
manner to deploy that technology.
    Baggage screening is proving to be a principal limiting 
factor impeding the safe, smooth and efficient operation of our 
Nation's busiest airports. Even when it appears that an airport 
is willing to help finance and install the new in-line baggage 
screening systems, the Transportation Security Administration 
and our Federal Government has been unable to respond.
    I know that the problems don't all exist with TSA by any 
means, though we have an antiquated system of accounting, for 
example, that crops up in any number of ways, and this is just 
one more downside of not modernizing our method of accounting, 
turning to accrual accounting, which every corporation does, 
but of course, we are back 100 years, doing it the way they did 
it 100 years ago.
    Those financing restrictions in fact have limited the 
availability of Federal funds. But I am confident that at the 
conclusion of this hearing we will have a clearer indication of 
what we can do to get these devices installed at our busiest 
and most constrained airports, certainly the airports that 
serve our Nation's Capital. The public deserves no less and I 
know, Mr. Chairman, you will not tolerate anything less than 
that given the fact that you are having this hearing and we 
have all the right people to talk to.
    Hopefully this will result in some real constructive 
efforts to not only help passenger safety, improve efficiency, 
but also in the long run we are going to save some money. Thank 
you very much.
    Chairman Tom Davis. Mr. Moran, thank you very much, too. 
The Members will have 7 days to submit opening statements for 
the record. We are now going to recognize our very 
distinguished panel of witnesses.
    We have Dr. Randy Null, who is the Assistant Administrator 
for Operational Process and Technology, Transportation Security 
Administration. Dr. Null, thank you for being with us today.
    We have Mr. James E. Bennett, the president and chief 
executive officer of the Metropolitan Washington Airports 
Authority. Jim, thank you for being with us. And Mr. Timothy 
Campbell, the executive director of the Baltimore/Washington 
International Thurgood Marshall Airport. Thank you for coming 
down here from Baltimore.
    I just want to thank all of you for your commitment to the 
industry and to the passengers and their safety. It is our 
policy that we swear witnesses before you testify, so if you 
would just raise your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. Thank you very much. Dr. Null, we will 
start with you. Your entire statements are part of the record. 
Thank you for being with us.

 STATEMENTS OF RANDY NULL, PH.D., ASSISTANT ADMINISTRATOR FOR 
  OPERATIONAL PROCESS AND TECHNOLOGY, TRANSPORTATION SECURITY 
ADMINISTRATION; JAMES E. BENNETT, PRESIDENT AND CHIEF EXECUTIVE 
   OFFICER, METROPOLITAN WASHINGTON AIRPORTS AUTHORITY; AND 
  TIMOTHY L. CAMPBELL, A.A.E., EXECUTIVE DIRECTOR, BALTIMORE/
       WASHINGTON INTERNATIONAL THURGOOD MARSHALL AIRPORT

                    STATEMENT OF RANDY NULL

    Dr. Null. Good morning, Mr. Chairman, members of the 
committee. I am pleased to have the opportunity to appear 
before you today at Washington Dulles International Airport on 
behalf of the Transportation Security Administration to discuss 
our Electronic Baggage Screening Program.
    We believe this program is an important part of our efforts 
to create a comprehensive, multi-layered system of security 
throughout the aviation sector. We also appreciate the 
participation of the Metropolitan Washington Airports Authority 
and the Maryland Aviation Administration this morning.
    Effective baggage screening depends upon the cooperation of 
our key stakeholders. We are thankful for the cooperation we 
have received from both organizations since screening began.
    As you know, TSA is responsible for not only conducting the 
screening of checked baggage carried onboard TSA-regulated 
commercial aviation flights, but also for the procurement, 
installation and maintenance of explosives detections equipment 
used to screen that checked baggage.
    As passenger levels grow and airports renovate and build 
new terminals, we must continue to evaluate equipment needs and 
placement to accommodate that increased traffic level. These 
types of activities must be factored into our application of 
risk-based analysis in making our investment decisions.
    In addition to the costs associated with the purchase and 
the life cycle maintenance of these technologies, installation 
costs are a significant component of the total cost of 
deployment. The cost of installing EDS and the ETD technologies 
consist of some or all of the following depending on the 
equipment and the specific location.
    First the site survey and design, site preparation and 
facility modification, warehousing and shipping, verification 
and validation testing, and operational and programmatic 
support.
    In 2003 and 2004, a significant Federal commitment of 
installation funding was pledged through the letters of intent 
[LOI], to reimburse airport operators for facility modification 
projects supporting the installation of in-line EDS equipment.
    TSA has issued eight letters of intent covering nine 
airports and TSA's commitment to these nine airports totals 
$957.1 million out of a total project cost of approximately 
$1.3 billion.
    In fiscal year 2006, we anticipate providing $240.4 million 
in LOI reimbursements at a 75 percent Federal share for the 
existing LOIs. These costs are solely for facility alteration 
and do not include the cost to procure and install EDS 
machines, which are fully funded by TSA.
    The equipment purchases associated with the LOI airports 
will continue in fiscal year 2006. In fiscal year 2006, TSA 
will continue to procure and install equipment at LOI and non-
LOI airports, including Dulles, in accordance with the 2006 
expenditure plan. This continuing effort is required to 
maintain sufficient screening capacity as passenger traffic 
increases and operational circumstances at airports change.
    Looking to the future, we have recently completed a 
strategic plan for the Electronic Baggage Screening Program 
that prioritizes future equipment deployments and we will begin 
using that plan to make investment decisions in fiscal year 
2007.
    The plan was developed using a top-down data driven 
planning model to perform a systematic, comprehensive 
assessment of a variety of screening solutions for airports and 
identify the optimal solution by balancing security and 
economic factors. These results feed into a model that 
prioritizes projects and identifies the optimal schedule for 
deploying equipment to airports given operational requirements, 
funding, equipment availability and other key assumptions.
    These continuing system deployment efforts are required to 
maintain sufficient screening capacity as passenger traffic 
increases over the next 10 years as projected by the Department 
of Transportation.
    Given the variety of local factors and conditions that will 
affect funding and design decisions, the final determination of 
the optimal screening solution for an airport requires a 
partnership between TSA, the airport operator, and the key 
airline tenants at that airport.
    TSA will work closely with airport operators and other key 
stakeholders to integrate the planning being conducted by many 
airport operators with the initial plans development as part of 
TSA's strategic plan. This will ensure that airport designs--
design systems that will adequately address screening 
requirements and ensure that the best overall implementation 
strategy will be executed.
    The final component of the Electronic Baggage Screening 
Program's strategic plan will be completed in 2006, with the 
release of a cost-share study required by the Intelligence 
Reform and Terrorism Prevention Act of 2004. This study--
through this study, TSA is working with aviation industry 
stakeholders to develop a cost-sharing formula and innovative 
financing solutions for the Electronic Baggage Screening 
Program.
    We anticipate that the initial results of this cost study 
will be available later this year. Thank you again for the 
opportunity to testify. I will be pleased to respond to 
questions.
    [The prepared statement of Dr. Null follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Tom Davis. Thank you very much, Dr. Null. Mr. 
Bennett.

                 STATEMENT OF JAMES E. BENNETT

    Mr. Bennett. Chairman Davis, Mr. Moran, Ms. Norton, on 
behalf of the Metropolitan Washington Airports Authority, I 
want to welcome you to Washington Dulles International Airport 
and thank you for holding this hearing today.
    The issue of more effectively and efficiently screening 
passengers and their baggage through installation of in-line 
baggage screening systems has been a major industry concern 
since the passage of the Aviation and Transportation Security 
Act in November 2001.
    Rarely has there been an issue in the history of the 
commercial aviation industry which would have such a positive 
impact on all of the partners which make it up, the Federal 
Government, airports, airlines, and our collective customers, 
than the concept of installing in-line baggage screening 
systems at our Nation's major commercial airports, starting 
right here at both Washington Dulles International and Ronald 
Reagan Washington National airports.
    To make it clear, the current system of screening checked 
baggage at our two airports is not capable of meeting the 
current demand, is operationally inefficient, consumes an 
inordinate amount of Transportation Security Administration 
resources and is incapable of meeting the projected future 
demands.
    Long before the mandated December 31, 2002, Department of 
Homeland Security and TSA requirement that all checked baggage 
be screened by explosive detection systems, airport operators 
across the country, including the Authority, began to wrestle 
with the logistics, engineering, customer service impacts and 
aesthetics of finding the space for the soon-to-be delivered 
machines.
    From the very first minute of our deliberations, we 
concluded that the only logical position and the most effective 
location for these machines were to make them an integral part 
of our existing baggage handling systems.
    The Authority and our industry made these concerns known 
long before the arrival of these machines. For the record, we 
have 19 EDS machines and 31 ETD machines at National and 33 EDS 
machines and 102 ETD machines here at Dulles.
    With the hope that we could avoid the possibility that our 
ticket counters and concourse areas would become the permanent 
location of these 185 machines, we immediately commenced design 
of in-line baggage screening systems in partnership with TSA 
and at a significant cost to the Authority for both airports.
    Concurrently we also began a dialog with the TSA to obtain 
Federal funding for them. The Authority originally applied for 
a letter of intent from the TSA on February 4, 2004, to find an 
in-line solution for checked baggage screening at Dulles and 
Reagan National.
    Later in the year, in June, I wrote to then Admiral David 
Stone, the former head of TSA, calling once again for his 
immediate attention to both of our LOI requests and outlining 
the tremendous growth and demand underway at Dulles. Admiral 
Stone replied, noting that TSA believes that installation of 
EDS systems at both National and Dulles is an important project 
that will enhance security in the Washington metropolitan area.
    The following month we submitted revised TSA applications 
for Federal funding due to the design requirements required to 
meet TSA's security protocols. In the meantime our airports 
have continued to grow. In 2005, all time records for 
passengers were set at both Dulles and Reagan National 
airports. At Dulles, 27 million passengers used the airport and 
17.8 flew in and out of National.
    As a result of this growth, we began to see the inevitable 
effects of a very limited baggage screening system on busy and 
growing airports, particularly at Dulles.
    You may recall last summer the Washington Post, in a 
lengthy article dated July 4, 2005, noted that several aircraft 
were being routinely delayed by up to 1 hour at Dulles due to 
the inability to screen baggage in a timely manner.
    Airlines planning to introduce the new large A-3 Aircraft 
at Dulles have expressed their deep concerns over the capacity 
constraints imposed by baggage screening. Also of great 
importance to us is the current state of our terminal buildings 
at both airports.
    With EDS machines placed throughout the ticketing and 
baggage basements, a quick tour, as you saw today, demonstrates 
why the Authority and our airline partners are having an 
increasingly difficult time properly managing our passenger 
lines and their baggage.
    I assure you, Mr. Chairman, that the Authority has not been 
sitting idly by waiting for TSA to act. We've invested nearly 
$8 million at Authority expense designing in-line systems that 
both meet the demands of Dulles and Reagan National for checked 
baggage screening while improving security of the aviation 
system.
    The estimated cost of constructing in-line baggage 
screening systems at both Dulles and Reagan National is $316 
million. Not only will such systems enhance the security of the 
aviation system, but they will also provide tremendous cost 
savings to the TSA in the form of reduced labor costs. Our 
initial estimates for Dulles, based on currently approved TSA 
security protocols, predict a labor savings of nearly 30 
employees per hour during the peak screening operations.
    Mr. Chairman, I know that the TSA is not satisfied with the 
current system of screening checked baggage at our Nation's 
airports. However, TSA is somewhat encumbered by Federal 
budgetary restrictions that limit its ability to work with the 
aviation system on improving the situation.
    I urge Congress to work with TSA on appropriate legislative 
reforms necessary to ensure the rapid deployment of checked 
baggage screening systems. For example, in 2003, we worked with 
the Federal Aviation Administration on financing a new air 
traffic control tower here at Dulles which expedited the 
project and saved the government money. We expect them to take 
possession of this new $50 million tower under the terms of a 
20-year lease-back this week.
    In conclusion I simply cannot state it clearly enough, an 
in-line baggage screening system for our two airports is 
necessary, affordable and cost-effective. The Authority is 
standing ready to work with the Department of Homeland Security 
and TSA to identify appropriate funding and reimbursement 
mechanisms which will allow us to install this most critical 
piece of aviation security infrastructure. Thank you.
    [The prepared statement of Mr. Bennett follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Tom Davis. Thank you very much, Mr. Bennett. Mr. 
Campbell, thanks for coming down from Baltimore to be with us 
today.

                STATEMENT OF TIMOTHY L. CAMPBELL

    Mr. Campbell. Thank you very much, Mr. Chairman, members of 
the committee. It's my pleasure to be here this morning. On 
behalf of the State of Maryland and BWI Thurgood Marshall 
Airport, thank you for this opportunity to share our experience 
in designing, financing and installing an integrated in-line 
system at least in one of our terminals at BWI Airport.
    In May 2005, BWI opened its new terminal addition, 
Concourses A/B, which accommodates Southwest Airlines, which is 
our largest airline partner. They have approximately 50 percent 
of our passenger activity at the airport and constitute 
approximately 10 million passengers annually.
    Concourse A/B, as has been indicated, is equipped with a 
state-of-the-art fully integrated in-line baggage handling 
system that has a capacity of approximately 2,400 bags per 
hour. That system went into operation in June 2005.
    We were fortunate at BWI because the planning for the 
terminal complex was underway at the time of September 11th, 
and the subsequent Federal regulations that governed the 
installation of integrated baggage systems and the requirement 
to screen all checked bags. It worked out for us to be able to 
go in and update the design to accommodate the in-line bag 
system as directed by TSA at that time.
    Although there were costs involved in terms of redesigning 
the facilities, we were able to accomplish that before we 
actually began construction. We've estimated that the 
additional cost was approximately $20 million over and above 
what the terminal complex would have cost anyway.
    At the time we moved forward with the project we did not 
have any commitments from TSA or the Federal Government to fund 
any or all of that project, but working in concert with 
Southwest Airlines, our airline partner, and the local TSA 
staff, as well as the Washington staff, we determined that it 
was clearly the best way to move forward.
    As indicated earlier, the in-line integrated systems 
clearly offer many advantages. I should note that TSA was 
instrumental in ensuring that all the necessary EDS equipment 
was onsite and in accordance with our construction schedule, 
and our local and national TSA contacts were very supportive of 
our efforts and arranged for technical support for the EDS 
machines at critical points throughout the project.
    In addition, TSA senior leadership, including TSA Director 
Kip Hawley, former TSA administrator, David Stone, former 
deputy, Tom Blank, Dr. Randy Null and Chuck Burke were always 
accessible to us, continue to be accessible to us, and are 
responsive to our concerns and request for assistance.
    Mindful of our cooperative approach and strained fiscal 
situation, TSA greatly assisted the project by executing a $10 
million Other Transaction Agreement [OTA]--it's basically a 
grant--to partially reimburse the airport for some of the TSA-
related project costs. Again it's approximately half of the $20 
million that the system costs to install.
    We're still finalizing the installation and TSA and our 
Southwest Airlines partners continue to work closely with us as 
we near completion of the installation. Prior to opening the 
Concourse A/B, the screening operation of BWI was similar to 
what you saw today and you see at many airports. We have either 
systems in the lobby or down in the bag room, but we're not 
fully integrated in in-line systems.
    In fact the other half of the airport, the other half of 
the passengers continue to use those, what we call a quasi-in-
line. Sometimes they're integrated into the baggage system 
itself, but they're not fully integrated as the Concourse A/B 
system is.
    We have about half of our system fully integrated and half 
that is not. It's my understanding, based on TSA reports, that 
there are numerous benefits which have already been enumerated 
for the in-line system, including cost savings, which have 
already been identified, but also as Congresswoman Norton has 
indicated, there are great benefits to the employees that have 
to work in those environments, handle the baggage, and as you 
saw today, some of those were pretty large bags that those 
individuals have to manhandle down in those systems.
    We've experienced at BWI since the system has been 
integrated a reduction in serious industry--injuries and 
worker's comp claims for TSA employees. It's also obviously 
allowed the TSA to process bags quicker and much more 
efficiently and the--it's considerably increased the efficiency 
of the Southwest operation at our airport.
    For these and other reasons there is strong justification 
for Congress and the administration to increase funding and/or 
pursue innovative financing mechanism for the installation of 
in-line bag screening improvements at airports throughout the 
Nation, including the three main airports that serve the D.C. 
metropolitan area.
    Just a couple of comments on some of those alternatives. We 
would like to recognize the efforts that TSA has expended to 
date for its ongoing efforts to examine various creative 
financing alternatives. Dr. Null mentioned some of those in his 
testimony.
    One such approach would allow TSA to enter into the shared 
savings agreements with airports. We've had conversations with 
them about those alternatives and we've also been proactive in 
analyzing the cost benefits of retrofitting the remaining 
portions of our system and we've provided that information to 
TSA to help support our case for moving forward with an in-line 
system in the remaining portions of our facilities.
    There's no question in our mind that there are savings to 
be realized as indicated earlier, both in staffing levels, 
personnel savings. That also allows TSA to reallocate those 
personnel to other screening activities.
    One other concept which I would like to mention at this 
time is the possible use of a passenger facility charge, a 
surcharge for security purposes. I think this might offer an 
alternative for some airports, if not all airports, a way to 
finance the installation of some of these systems without 
requiring the general fund to be involved or perhaps dealing 
with some of the more creative financing mechanisms.
    I think a surcharge of $1 or $2 on the PFC of a limited 
duration, specified only for security-related projects, I think 
will be another alternative that the committee and the Congress 
may want to consider. The advantage of PFCs is it allows the 
airport basically to control the project. We know how to do 
these capital projects. We do them all the time, every year, 
and you saw demonstrated here at Dulles some of the large 
projects that they have underway. That's what we do and we 
think we could do it very well working with TSA and our airline 
partner.
    I offer that up as another alternative for your 
consideration. Thank you very much for this opportunity to 
participate and I look forward to answering your questions.
    [The prepared statement of Mr. Campbell follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    [GRAPHIC] [TIFF OMITTED] 
    
    Chairman Tom Davis. Mr. Campbell, there is already what, a 
$4.50 cap on passenger facility charge; is that right?
    Mr. Campbell. That's correct.
    Chairman Tom Davis. You say another $1 or $2 could make a 
huge difference?
    Mr. Campbell. I think it would. It wouldn't satisfy all the 
demand from these facilities, but I think it would go a long 
way. In our case it would come close if it were over a 5-year 
period of covering maybe 50 to 60, 70 percent of the additional 
costs that we're going to----
    Chairman Tom Davis. Basically additional tax per flight?
    Mr. Campbell. Per passenger.
    Chairman Tom Davis. Per passenger, $1 to $2.
    Mr. Campbell. That's correct.
    Chairman Tom Davis. Mr. Bennett, that would give what, 
roughly $50 million a year if you did $2, or $25 million a year 
if you do $1 per passenger?
    Mr. Bennett. The way the passenger facility charge is 
currently structured, it's on the passengers boarding the 
aircrafts, so you have to take your total passengers and cut 
them in half, so it would probably generate for 1 year $20 or 
$30 million additional a year.
    Chairman Tom Davis. I see what you are saying; you only get 
them going one way?
    Mr. Bennett. Yes. The problem that potentially presents is 
that many airports, such as the Authority, Dulles and National, 
already have those PFCs committed well into the future to 
expend them on very large capital and capacity-enhancing 
projects such as we have underway here in Washington, building 
additional runways and other airport infrastructure to support 
the future demand of the system. Not all airports would be able 
to avail themselves of taking those already committed resources 
and using them to fund----
    Chairman Tom Davis. But if you had another dollar, you 
could add a dollar, you could put it somewhere else?
    Mr. Bennett. Indeed and probably toward those capacity and 
safety projects, because the $4.50 PFC that was approved many 
years ago in real dollars is today only worth about $2.70. It 
is of diminishing value since it is not indexed to inflation.
    Chairman Tom Davis. Let me ask, according to a July 2005, 
Post article, airlines at Dulles were experiencing delays of up 
to 45 minutes because TSA could not screen baggage quickly 
enough. Has that situation improved or worsened since that 
article was written?
    Mr. Bennett. The situation will, I predict, present itself 
again at Dulles this summer when we enter into the peak travel 
season. It's just a volume issue where the baggage delivery 
systems can deliver bags at a rate that the TSA, with their 
technology, probably can't----
    Chairman Tom Davis. You did apply, as you noted, to TSA for 
a letter of intent on February 4, 2004, and you followed up in 
June. TSA acknowledged and agreed with your letter. One month 
later you submitted a revised letter of intent request and that 
was the last you heard from TSA?
    Mr. Bennett. We've had conversations with Administrator 
Hawley on this back in the summer and they admitted that they 
are lacking in resources to provide us with a letter of intent 
for our systems.
    Chairman Tom Davis. Dr. Null, I guess that gets you to the 
meat of the matter. You did do letters of intent to eight 
airports; is that correct?
    Dr. Null. Yes, sir.
    Chairman Tom Davis. Instead of opting for Dulles, which you 
had applied, they went with Seattle, Phoenix, Vegas, Boston, 
Dallas/Fort Worth. What was the criteria that in the Nation's 
Capital, where at least one of the flights on September 11th 
flew out of here, where there is more likely a terrorist 
threat, I think, if you take a look at threat analysis, than 
some of the others, rapidly increasing passenger rates, 
diplomats, heads of state come in here, why did Dulles not get 
the grant and they opted for eight other airports?
    Dr. Null. Sir, first of all, there are eight LOIs. They do 
cover nine airports because of the LAX/Ontario one. The 
situation we were in is we had a number of the airports where 
we were very much struggling with just achieving 100 percent 
baggage screening coverage because of the challenges of the 
lobbies or the baggage areas that we had available to us and 
that we were going to have to put in some solutions that were 
not workable for very long.
    We had a situation where we had large volume airports. We 
were not sure how we were going to be able to preserve 
compliance on that screening and that was the governing factor, 
where we made those initial investments.
    Chairman Tom Davis. The more efficient an airport is they 
have to get punished?
    Dr. Null. It was more an issue of what space was available 
to us because as you have indicated, the EDS machines are very 
large machines. In many cases we just absolutely didn't have 
the space to put them. It became a question of where did we go, 
how were we going to get out of the situation that we were in, 
and that was a big part of it.
    Chairman Tom Davis. You have space at Dulles though?
    Dr. Null. We have space in Dulles. We recognize the 
challenges of keeping up with the growth.
    Chairman Tom Davis. What about the 45-minute delays here? 
We've got diplomats, heads of states, key government officials 
flying in here.
    Dr. Null. Yes, sir.
    Chairman Tom Davis. Every terrorist watch list. You even go 
to movies; Dulles is a focus on these issues. What are the 
chances of now do I want to revisit why you picked Seattle/
Tacoma over this? Where do we stand at this point?
    Dr. Null. We submitted the strategic plan to Congress 
earlier this month. I can tell you that Dulles is very high on 
that list for the next level of grants for the next program in 
terms of how we get an EDS done.
    The challenge that we face, has been discussed previously, 
is what are the funding mechanisms to actually accomplish that? 
That's why as a part of this study, which placed Dulles very 
high on that list, is the study for looking for alternative 
funding approaches and different vehicles, for which we 
appreciate Mr. Bennett's participation on our steering 
committee.
    Chairman Tom Davis. Has MWAA offered you any innovative 
financing?
    Dr. Null. We certainly have had a number of discussions. 
Mr. Bennett is a part of that steering committee, so we've had 
a number of discussions about potential lease-back options or 
different approaches to potential fees.
    We're really trying to take a don't leave anything off of 
the table approach and put everything up, look to see what 
those look like either through leveraging the capital, leasing 
industry itself, or looking at operational lease-backs, as the 
FAA has done with the tower, all the way to looking at a fee-
for-service type lease-back option as well. Many of those 
certainly have some issues with the current accounting systems.
    Chairman Tom Davis. My experience of this has been more 
anecdotal, but I think I've flown into almost all of these 
airports that did receive grants. We do have the Post report of 
45-minute delays and I think Mr. Bennett said this could be a 
long summer again.
    The in-line would take a couple of years to get up. This is 
a growing airport. This is not one that is just stable. We see 
more and more flights coming in and out of here. You have seen 
fit so far, given the opportunity to do eight or nine airports, 
that this didn't meet the criteria. But anecdotally, I can just 
say that the waits here have been as long as any airport.
    LAX is pretty tough. I am not going to fight on that. But 
some of these others I have been in and out, maybe it is timing 
when you are there or not there. But I will tell you, coming 
out here on a Friday night in the summertime, it is a long, 
long wait.
    Dr. Null. Yes, sir.
    Chairman Tom Davis. This is not just passengers. This is 
the workings of our government, international commerce and 
everything else, and I would say that any way we can try to get 
these in-line procedures established here as quickly as 
possible will go a long way toward safety of the air traveler, 
as well as efficiency in just carrying out the Nation's 
business. How high on the list are we?
    Dr. Null. I don't remember the exact position. You're in 
the top 10 and I don't remember exactly where.
    Chairman Tom Davis. We made the top 10 of the old list and 
you would have made the cut?
    Dr. Null. I understand sir. No, we were----
    Chairman Tom Davis. About five?
    Dr. Null. Right in there, yes sir.
    Chairman Tom Davis. Could you get that information to us?
    Dr. Null. Yes sir, we will do that.
    Chairman Tom Davis. Since I am sure that is public. Ms. 
Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. 
Administrator Null, is there any money in the President's 
budget that would allow some of these integrated machines to 
begin to continue to flow this year?
    Dr. Null. We certainly do have existing LOI airports where 
many of those are in construction and will be----
    Ms. Norton. I'm talking about new ones.
    Dr. Null. In terms of new ones, there are some that are 
lower level funding requirements that we can manage through 
OTAs that don't require the large LOI type commitments, so 
there--in many cases it's not a full in-line system; they are 
partial in-line systems.
    We can achieve the same kinds of efficiencies and 
effectiveness, but they tend to be not the big, large 
integrated systems but smaller in-line capability.
    Ms. Norton. I ask about this because, Administrator Null, 
there is seldom where the government can make a case that by 
putting out money it will recoup its investment quickly so that 
when agencies have to go to the government, they don't usually 
have to offer what TSA has to offer, apparently in some 
instances, and maybe these are the larger ones that look like 
they are further down the line.
    According to the GAO these in-line systems would result in 
personnel savings of as much as 78 percent, for example, 
screeners. It is hard to understand why if on the one hand by 
making an initial investment you can save the government money, 
that the TSA would not be pressing the administration, 
informing them. They need to know this, that this is one of 
those bright spots in the Federal budget that could have 
multiple effects, including these cost saving effects.
    I do not understand the strategic plan, given what GAO 
tells us about recouping investment. Does the strategic plan 
include the number of airports that TSA thinks, for example, on 
an annual basis or whatever basis, could in fact get these 
machines, particularly given these cost savings? Remember, 
these TSA employees are 100 percent Federal employees. Does the 
strategic plan get to that level of detail?
    Dr. Null. Yes ma'am, the strategic plan covers the top 250 
airports, which captures----
    Ms. Norton. Including the number of airports per year, for 
example, that if funding were to occur, could be funded?
    Dr. Null. What it does is prioritize where we would go 
after--which in-line systems or which other optimal systems we 
would be looking for and it projects the costs associated with 
what it would require to do those systems.
    Ms. Norton. Has TSA ever commissioned a cost-effectiveness 
study? With the GAO telling us about these extraordinary 
personnel savings, have you done your own study to find what 
the savings to the Federal Government would be by putting these 
machines online?
    Dr. Null. Yes ma'am, we have done that for several years 
now and some of that is how we have prioritized a lot of our 
OTA money in particular.
    Ms. Norton. The message is not getting through if in fact 
you are not able to tell me that there are X amount of dollars 
for these machines this year in X number of airports, including 
this airport.
    Mr. Campbell, here we have right in our own region an 
airport that saw it was building on its own in this troubled 
industry, took the initiative without any promise of funding 
from TSA. Mr. Campbell, you say you have gotten about half of 
that funding back through applying. How were you able to do 
that? Was it your initiative being rewarded?
    Mr. Campbell. You have to ask TSA about that. We did work 
closely with our TSA partners and we did ask for the money. We 
let them know all the way along what we thought the costs were 
going to be and we were able to work with them in securing that 
$10 million.
    Ms. Norton. But we know that you may be in an unusual 
position with Southwest as your hub airline. This morning we 
are told that Northwest Airlines, which is in bankruptcy, is 
also facing the possibility of a strike and no industry is more 
on its knees, or shall I say, its back, than the airline 
industry.
    Where did the suggestion come from? Did Southwest say, let 
us do this? Did you go to Southwest and initiate this? Do you 
know of any other airport in the country which is partnered 
with its airline to jumpstart this process?
    Mr. Campbell. I think there are a number of airports that 
work closely with their airlines in terms of moving the process 
forward. It's really a three-party arrangement between the BWI 
Airport, Southwest Airlines and the TSA.
    We knew that there were mandates out there to screen all 
checked bags. We knew that we were in construction and 
development of a new terminal project. It just worked out 
timing wise we were able to integrate the new requirements into 
the design of the facility. From a timing point of view it was 
ideal.
    Ms. Norton. Dr. Null, are there any airports being 
constructed now? If airports are in the position that BWI was 
in, is TSA prepared, seeing the cost savings that were 
possible, to move forward, to take a priority look at the kind 
of savings that might be involved there, in your strategic 
plan?
    Dr. Null. Certainly we work with all of the airports in 
trying to project what new capacity may be coming online or 
what new terminals. Certainly if there's an opportunity to put 
in-line systems in we support that and work with them on their 
design.
    Ms. Norton. Mr. Chairman, could I ask unanimous consent 
from you to have the strategic plan he is talking about 
submitted to this committee?
    Chairman Tom Davis. Without objection. There is no problem 
placing that. That will be put in the record. It is a public 
plan, right?
    Dr. Null. Yes.
    Chairman Tom Davis. Without objection it will be placed in 
the record.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 
    
    Ms. Norton. Perhaps some of these questions are answered 
that way. I would like to know from Dr. Null, because there is 
in Mr. Bennett's testimony a quotation from Admiral Stone, the 
former administrator. TSA believes that the installation of the 
in-line EDS system at both DCA and IAD is an important project 
that will enhance security in the Washington metropolitan 
areas.
    Could I ask you whether or not the benefits, clearly for 
convenience, clearly cost savings, of whether there are 
security or risk saving benefits to installing the integrated 
systems?
    Dr. Null. Within the two airports here in the Nation's 
Capital, absolutely. We understand----
    Ms. Norton. What would those be, please?
    Dr. Null. I haven't got the exact numbers, but I would 
estimate that we would probably see a 30 percent, 25 to 30 
percent staff reduction associated with the baggage screening 
piece of it.
    Ms. Norton. The machines that are in place throughout the 
country now, here and throughout the country, were those the 
machines that were already in place at September 11th?
    Dr. Null. No, ma'am. At September 11th, I think we had 
approximately 100 to 110 machines that had been deployed in the 
previous several years. Since September 11th, we have deployed 
approximately another 1,500 machines on top of that, as far as 
EDS.
    Ms. Norton. I have a question regarding those machines and 
this new round of machines, but I will go for a second round. 
Thank you very much, Mr. Chairman.
    Dr. Null. Mr. Chairman, with regard to the strategic plan, 
we have submitted to the committee, it is SSI, so we need to 
understand what can or cannot be put in the record as a result 
of that.
    Chairman Tom Davis. We will work with you on that.
    Dr. Null. OK, thank you.
    Chairman Tom Davis. Thank you very much. Mr. Moran.
    Mr. Moran. Thanks, Tom. I am curious, Dr. Null, has there 
ever been the detection of an explosive device with all the 
screening, the billions of dollars we have spent to screen the 
bags, have they ever found a device that would have blown up an 
airline?
    Dr. Null. We have found things, sir.
    Mr. Moran. I know you found things. You found things----
    Dr. Null. I'm not prepared to go into the details, but yes 
we have found explosives.
    Chairman Tom Davis. How much? How many?
    Mr. Moran. Very often? I mean, Tom has asked how many?
    Dr. Null. Very, very seldom, sir.
    Mr. Moran. Very seldom. You could say that you have 
thwarted a disaster as a result of this screening; is that fair 
to say, at least once, other than the deterrent effect one can 
assume?
    Dr. Null. Certainly the deterrence has a big effect. This 
is a difficult question to answer in this forum, but I would 
say that we have thwarted things going on the airport--or 
airplane that should not have gone on the airplane.
    Mr. Moran. Yes, but I trust you are not talking about nail 
clippers and things like that?
    Dr. Null. No, sir.
    Mr. Moran. I am saying explosive devices because there 
would not be any reason to carry an explosive device. If you 
have something in your luggage--and we are really talking about 
luggage now--that is in the cargo hold, you are not going to be 
able to get at it.
    Things like knives and so on, one would assume that is not 
a threat. It would have to be an explosive device planted with 
some timing device on it. I am just curious as to whether that 
has actually happened over the last 4 years?
    Dr. Null. Again, without going into specifics, I can say 
that we have found materials that were potentially dangerous. I 
really would prefer not to talk about timing devices or 
anything like that in this forum. If you would like to have 
follow-on discussions we certainly could do that.
    Mr. Moran. I ask the same kind of question with regard to 
torture, whether we had ever obtained information that actually 
resulted in saving lives or that was used in a materially 
beneficial way. I got the same answer. Then when I look 
further, there really wasn't any.
    It seems to me a fundamental question if you are looking at 
cost benefit, but I grant you, there is a deterrent effect 
doing this. But if we are going to do it, we ought to do it in 
the most efficient manner with the least inconvenience and the 
least cost.
    I think Congress does have some responsibility for that. As 
I said in my opening statement, we mandate it, so we ought to 
not just leave it at that and then leave it to others to figure 
out how to do it.
    You are confident that if these in-line systems were 
implemented that it would be more full proof, there would be 
higher level security. You testified there would be less 
personnel costs, as much as 30 percent, so that is a 
significant savings. Mr. Davis and Ms. Norton referred to that.
    How do the passengers benefit? There is a reduction in the 
time that they would be waiting in line generally; is that a 
fair statement, or should I ask Mr. Bennett or Mr. Campbell 
that?
    Dr. Null. I think it depends on the particular situation 
where how the operations actually work in a given airport. In 
some cases the passenger is required to drop off their bag at 
the screening center.
    In some cases it's handled behind the counter. If it's 
behind the counter then there's really no delta that the 
passenger would see. If they no longer have to drop their bag 
off then certainly it's more efficient and more effective for 
them.
    Mr. Moran. Just so the audience understands, because there 
is an airline with the same name, you are saying there would be 
no change?
    Dr. Null. No change, yes sir.
    Mr. Moran. It is a good word to use, except that it could 
be misinterpreted. There will be no change in any airline, 
Delta or any others, if you are doing it behind the counter.
    Let me ask Mr. Bennett just for the purposes of our own 
constituents; do you think they would see a reduction in the 
amount of time they have to wait in line if we have this in-
line system?
    Mr. Bennett. Mr. Moran, I'm not sure that there would be a 
significant reduction in the length of time that the passenger 
waits in line. What would offer the benefit is the circumstance 
that we had this summer, which potentially will happen again as 
the airport continues to grow, and that is flights being 
delayed where the passengers are sitting on the airplane, it's 
ready to go, but the baggage has not been processed and loaded 
on the aircraft yet because of the delay in screening.
    Mr. Moran. For example, we heard that a water filter had 
been identified which was deceptive. When you looked at the 
radiation, it looked as though that could be an explosive 
device.
    The problem is that you have to now contact the bomb squad 
in Arlington County, I understand, and if it is a half hour a 
way--actually, if it is at rush hour, it could be more than 
half an hour away--everything comes to a stop, a halt, until 
you can get the bomb squad and deal with it.
    You are saying the relay is that you would not have 
situations like that occur as frequently? In almost every case 
you would be able to determine what the article was more 
quickly and more definitively; is that fair to say?
    Mr. Bennett. Not necessarily in the case that you cite 
would that be the circumstance. Where the benefit comes in is 
the through-put rate of the screening process. It goes up 
considerably where the baggage handling systems deliver bags to 
the TSA at a rate that is much higher than their ability to 
screen them.
    As a result, it's a backlog. It becomes a congestion in the 
system and it just takes time to screen all of those bags by 
the TSA personnel. The in-line solution matches the baggage 
conveyer systems, are matched with the through-put rates of the 
screening equipment so that you don't have that delay.
    Mr. Moran. Sure, but I also thought there was an additional 
safety element, that it is more mechanized and so the detection 
capability is more----
    Mr. Bennett. There are different protocols. There are 
different protocols involved that in certain cases can resolve 
those issues without having to take them to that next level 
that you were describing earlier.
    Mr. Moran. Thank you.
    Chairman Tom Davis. We are going to do just one more round 
of questions, if that is all right. We had a number of good 
questions by my colleagues that beg more questions.
    Dr. Null, let me just ask you, what cost savings and 
operational efficiencies has TSA realized at the 12 airports 
with fully in-line systems?
    Dr. Null. Most of the ones where I think we will see the 
largest amount are still in construction and we haven't 
finalized those. Dallas-Fort Worth and Atlanta are two that we 
think will see significant improvements. Those are--Atlanta is 
not up yet. Dallas has still got one more module, but we're 
seeing significant improvements there.
    Some of the other ones, Boston, for instance, and Orange 
County, who is another one who went on their own, it was more 
of an avoidance and the fact that they came up online before we 
actually fully staffed, so we avoided having to add as many 
TSOs as we would have had to had they not gone online.
    Chairman Tom Davis. But there are significant savings?
    Dr. Null. There are significant savings.
    Chairman Tom Davis. Huge upfront costs?
    Dr. Null. There are huge upfront costs, but there are 
definitely the savings that pay it back. It's variable 
depending on the complexity of the airport and the complexity 
of the infrastructure that has to be built.
    Chairman Tom Davis. Mr. Bennett, what is the cost of not 
doing this to Dulles? If we do not get an in-line system here, 
what are we going to see?
    Mr. Bennett. Mr. Chairman, you will continue to see delays 
and you will see over time TSA trying to find a place to put 
more and more of these machines in the lobby as the airport 
continues to grow. As we indicated----
    Chairman Tom Davis. At 5 on a Friday evening there is no 
place to put them?
    Mr. Bennett. Correct. As we indicated, last year we had 27 
million passengers processed through Dulles. Within the next 10 
years that number could be closer to 40 million. Our fear is 
that the ability to screen baggage could become a capacity 
restriction on our ability to meet aviation demand in the 
region. That's one of the----
    Chairman Tom Davis. Is there any other airport slated to 
grow as quickly as Dulles, like from 27 to 40 million, that is 
in the queue right now to get in-line; do you know, Dr. Null?
    Dr. Null. I'd have to look. There are approximately 45 
airports who have requested LOIs for building in-line systems. 
I don't have that on my fingertip right now.
    Chairman Tom Davis. But you have to admit that Dulles is 
one of the faster growing of those airports?
    Dr. Null. Dulles certainly is one of the faster airports.
    Chairman Tom Davis. Obviously the earlier we make these 
investments the better. Let me just ask this. I don't know how 
many dollars you are going to have to work with this year, but 
I know Mr. Bennett has talked about maybe some innovating 
financing.
    Is there anything we can do from that area to help? Mr. 
Campbell, if you know, you or at least get one of your partners 
to finance some of the money, which was important.
    How do we get this thing up as quickly as we can? I think 
there is an agreement that we need to do this, from everybody. 
Dr. Null, you are saying, well, we do not know how much money 
we will have or where they are on the priority list, and I 
understand that.
    Mr. Bennett has come back with some innovative financing 
ways. But every day that is delayed creates greater 
inefficiencies in this airport and frankly puts more pressure 
on the people looking at the bags. Although there are not a lot 
of incidents that occur on a daily basis, the likelihood of 
making a mistake when you are backed up and under pressure and 
everything else increases as well, in this, one of the most 
vulnerable airports in the country.
    Let us agree we want to get this done as quickly as 
possible. What can we do from an innovative way with Congress 
in there, to try to make this work?
    Dr. Null. I think we need to work as quickly and as 
effectively as we can to finalize the study that Mr. Bennett is 
participating on. Let's get those recommendations on the table 
and try to get action as fast as possible so we can figure out 
how to go forward.
    Chairman Tom Davis. How reliable are these in-line systems 
once they are created? Mr. Campbell you have any experience 
with that? Do they break down very often for maintenance and 
repair?
    Mr. Campbell. They do break. It's a piece of equipment. We 
have had pretty good experience. TSA might be in a better 
position to answer since they are responsible for maintaining 
the machines themselves. But you have all the conveyers that 
are also part of this system that we are responsible for. It is 
a new system and it's functioning pretty well right at the 
moment.
    Chairman Tom Davis. Who makes them?
    Dr. Null. There are two companies who are the primary 
suppliers of in-line systems. We have three certified vendors 
right now, Reveal being the low speed small footprint machine. 
The two main in-line systems are L-3, which is at BWI, which is 
what is at Boston Logan. Then General Electric, who bought 
InVision, who has the CTX machines. Those are typically the 
9,000's where you will find in Atlanta and Dallas.
    Chairman Tom Davis. Ms. Norton.
    Ms. Norton. Thank you very much, Mr. Chairman. I recognize 
that much of the fault here lies right here with the Congress 
of the United States. Indeed I'm on the Aviation Subcommittee 
that said, quick, get some machines and here is your date and 
we do not want you to be a minute late on explosive equipment, 
so I understand that.
    That is, by the way Dr. Null, why I believe in the 
administrative process where the experts are supposed to be. I 
must ask you, in light of these sequential mandates, the 
capital equipment, first you are mandating equipment to do the 
screening and then by the way, now we are mandating a whole new 
set of equipment. Do you think that this new equipment will in 
fact screen all we need to screen?
    Dr. Null. I think we've made a lot of progress. I joined 
TSA in January 2002, and we started looking at this whole big 
program and the challenge of the mandate that we had to meet at 
the end of 2002. We looked at the performance of this 
equipment. We've invested a fair amount of R&D dollars to 
enhance the speed and the false alarm rates that we were 
seeing.
    Ms. Norton. I don't want to hear now we need some 
biochemical, new machines 2 years from now and then our 
subcommittee was OK, get it done and get it done by a date. 
That is why I am asking, frankly.
    Dr. Null. We are starting to work with Science and 
Technology Directorate as well as DNDO and looking for 
developing technology that has multi-threat detection 
capability so that we don't keep just adding more boxes and 
more things every time we see a new threat.
    Ms. Norton. This is really primitive. I understand it is a 
developing science, but it is very unsatisfactory and Congress 
gets afraid every time they hear of a new kind of threat.
    Let me ask you to get some sense of how this works. I was 
asking as my time ran out before about the machines that were 
in place before September 11th. Those machines have to be 
upgraded, or did new, better machines have to be put in as a 
result of September 11th, either because of congressional 
mandate or because you deemed it necessary after September 
11th?
    Dr. Null. All of the machines that went in following 
September 11th were pre-existing technology or equipment. They 
all met a certification standard that is still the standard 
that has to be met today. What we've done has greatly enhanced 
the speed of those. We worked with the companies to be able to 
do field upgrades of that.
    Ms. Norton. What will happen to those machines; we will 
just put this new technology into those machines?
    Dr. Null. In some cases we will be able to upgrade the 
machines that are already in place so we won't move them 
anywhere; we'll just improve their speed or their performance. 
In some cases we will waterfall that equipment to the next 
lower level airports in terms of where we have high density of 
ETD, high labor count. We'll be able to deploy those EDS 
machines to those airports, which will be stand-alone, but it 
will still have big benefits from a staff standpoint.
    Ms. Norton. We are not discarding machines?
    Dr. Null. No, ma'am.
    Ms. Norton. We simply use hand-me-down machines?
    Dr. Null. We're refurbishing and reusing those machines, 
yes.
    Ms. Norton. What about National, Mr. Bennett? We have 
talked about Dulles, of course, here a lot. The elephant in the 
room is National. Of course, if we want to talk crowding, if 
you want to talk not another slot, if you want to talk what 
putting that kind of machinery would do, you could look at 
National, although I am going to say the renovated National is 
perhaps as able to hold this primitive equipment as Dulles is. 
But what about National?
    Mr. Bennett. National--Reagan National currently has all of 
its machines for screening the baggage located on the ticketing 
level of the terminal building.
    It was a very unfortunate situation. As you know, Ms. 
Norton, we had just opened a brand new state-of-the-art 
terminal building at National in July 1997, and quite a bit of 
attention was paid to the intimate details of processing 
passengers and 4 years later we found ourselves encumbering 
that design by placing these machines in the lobbies of the 
ticketing level of the terminal building.
    We recently in--in fact as we speak, we're in the process 
of trying to go through a selection of a design firm to work 
with the Authority and then we will partner with our friends at 
TSA on trying to come up with an economical and efficient in-
line solution for checked baggage screening at National with 
the ultimate goal of hopefully being able to get some type of 
Federal funding commitment and be able to remove those machines 
from the lobbies and place them in-line so that the baggage is 
efficiently and effectively screened.
    Ms. Norton. Dulles has applied. Have you applied for 
National as well?
    Mr. Bennett. We made a preliminary application for National 
also. Our applications were for both airports. Dulles is by far 
a more pressing issue than National.
    Ms. Norton. Let me ask this final question. Pursuant to our 
tour downstairs I learned that the people down there earn 
$30,000 a year. Those are Federal employees, Dr. Null. We saw 
conditions that I guess cannot be helped, but my goodness, it 
sounds like a throw back.
    We do not have any way to lift even heavy luggage, so 
people have to lift the heavy luggage onto your machines to 
screen for explosives. As I indicated before pursuant to a 
number of questions I asked about the fans, I learned that 
these people earn $30,000 a year, that it could get easily to 
be 100 degrees, that there is huge backup of suitcases and 
other luggage because they're only human and there is no 
mechanical way to deal with taking it off of the sorters and 
putting it into these machines.
    I must say, I think it is close to inhuman to have 
everybody up here in air conditioning and to have people in a 
dungeon downstairs earn $30,000 a year in 100-degree heat. Then 
I ask, is it not possible to air condition a facility in the 
basement the way we do throughout the United States?
    I would like to ask who is responsible for that and what 
can be done to alleviate inhuman conditions. If all you have 
are those fans, you are circulating 100-degree heat. I consider 
it a terrible, terrible thing. The contrast between up here and 
down there, seems to me, is unsustainable and should not be the 
case.
    Mr. Bennett. Ms. Norton, that's an issue that is of great 
concern, not only to TSA but also to the Airports Authority. 
The Airports Authority is exploring the options of trying to 
reduce the temperature in that facility during the summer 
months.
    It's very important to note, and that's one of the 
exacerbating issues here, is that the facility where you saw 
those employees working and that machinery located, was never 
designed or contemplated to be in existence down there. That 
was really a place for baggage to come down for someone to 
drive a cart in, pick it up, throw it on the cart and leave the 
basement. It wasn't set up to have large numbers of people with 
machines.
    Ms. Norton. I understand that. But now that you are putting 
people in there doing work that none of us would want to do 
even in air conditioning, I have to ask you, are there any 
plans to air condition that in the summer?
    Mr. Bennett. There are no plans to air condition the entire 
basement during the summer; it's just not feasible to do.
    Ms. Norton. What is feasible to do in 100-degree heat?
    Chairman Tom Davis. You have big fans up there, don't you?
    Mr. Bennett. We have fans and then we are exploring 
bringing----
    Ms. Norton. The fans and 100 degrees circulate 100-degree 
heat.
    Mr. Bennett. We're bringing--exploring the opportunities to 
bring in portable--I think you've probably seen them at some of 
these sporting events--portable cooling units that you can 
place in proximity to those screening locations to try to 
bring----
    Ms. Norton. Mr. Bennett, thank you for that answer and can 
I ask you to try to expedite that for the summer?
    Mr. Bennett. We will certainly explore that, Ms. Norton.
    Ms. Norton. Thank you. You know what, you know you will get 
a phone call from me this summer to see if that has happened.
    Mr. Bennett. I'm sure we will.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Chairman Tom Davis. Mr. Moran.
    Mr. Moran. Thank you, Chairman Davis. It is nice to have 
Ms. Watson join us as well. I have a couple of questions that I 
wanted to pose.
    If we were to put some language into a bill that enabled an 
airport like Dulles and/or National to be able to construct, 
purchase these machines, install them and pay for it in the 
same way that you paid for the tower, where you constructed and 
you leased it back so that you pay for it on an annual basis, 
would that facilitate the availability of these machines if we 
put some language in enabling that kind of accounting mechanism 
to apply to these machines for this Airport Authority?
    Mr. Bennett. I think that's likely to be one of the 
recommendations that comes out of the study. We've indicated to 
TSA that if they are willing to sign such an agreement that the 
Airports Authority is willing to access the top of the markets 
to provide for the construction and the installation of these 
systems. But we need some reimbursement mechanism, be it a 
lease or some other mechanism, to help us pay for them.
    Mr. Moran. The financing hurdle, we can overcome that with 
language, because I would assume that the personnel savings are 
going to be equal to or greater than the annual lease-back 
cost; is that true? What is the comparability there; do you 
know?
    Dr. Null. It's sort of an airport by airport basis in terms 
of how long the payback would be for that----
    Mr. Moran. Let us talk about this airport at Dulles. Do we 
know whether the savings would be----
    Dr. Null. I'm not sure what their savings would be with the 
installation of the system. We know that our estimate on the 
capital cost is somewhere in the vicinity of $250 million here 
at Dulles.
    Mr. Moran. You would amortize it normally over what, a 10, 
15-year----
    Dr. Null. Normally we would amortize that over about a 20-
year period.
    Mr. Moran. Twenty years. Just doing the math quickly, I 
think your personnel savings on an annual basis are greater 
than the lease costs; I think they are. That would make a lot 
of economic sense if we could put the language in that would 
enable you to do that, obviously, yes.
    Mr. Bennett. We would welcome the opportunity to execute 
such an agreement with the TSA.
    Mr. Moran. Good. You can propose language that would enable 
us to do that, whether or not we could pass it or not, but if 
you could give us the kind of language that would be needed?
    Dr. Null. A part of the study is--there is one team who 
will be developing potential recommendations for legislation.
    Mr. Moran. The study is due?
    Dr. Null. Right now we're probably in the May/June 
timeframe.
    Mr. Moran. Of this year?
    Dr. Null. Yes.
    Mr. Moran. It is eminent. Just thinking that it would be 
nice if we could slip into an appropriations bill in a timely 
manner this year. I would hate to just miss it because we were 
waiting for the report to come out. Even though we know what 
the report is going to recommend, maybe we could get an 
advanced copy so we could act in a timely manner.
    The other thing that came to mind, and it came to mind in 
the context of Ms. Norton's questioning, was there a 
requirement for those personnel to wear any kind of safety vest 
or whatever in case there was an explosive device in the 
baggage; has that ever been required?
    Dr. Null. No, sir. Certainly the EOD people wear 
protective----
    Mr. Moran. Yes. I do not want to impose that kind of a 
requirement. It just seems as though in their handling they 
might be exposed to something, because they really have the 
first view of what is in that luggage. Tom, I am all set. I 
know we want Ms. Watson to----
    Chairman Tom Davis. We are very happy to have the 
distinguished lady from Los Angeles here. Ms. Watson, thank you 
for being here.
    Ms. Watson. Thank you, Mr. Chairman.
    Chairman Tom Davis. LAX has been handled very well by TSA, 
but we are happy to have you here.
    Ms. Watson. Thank you. I appreciate you gentleman coming 
and putting yourselves on the hot seat. About maybe almost 4 
years ago on the Fourth of July at LAX we had a shooting. Some 
of you might remember it. It was the El Al.
    The problem was the gentleman stood in a long line and when 
he got near he just started blasting away, killed two people, 
and it occurred to me that our problem was not once he took out 
the boarding pass, but how do we detect weapons such as he used 
before they get to the counter?
    He came in with an intent. When they finally killed him and 
they got out to his house, on his door it said, Allah was 
great. This was the plan, I understand, from the FBI and the 
CIA, that it was a trial run.
    My concern addresses, how do you detect weapons on the 
grounds of the airport, and No. 2, the other end of this line 
I'm getting ready to catch in a few minutes is LAX. We heard 
last week that LAX was an intended target in 2001.
    I am very concerned about, do you have the equipment 
needed, how is that progressing at LAX, the end of the flight 
I'm getting ready to take in a few minutes, and what are we 
doing, how are we moving along with the equipment necessary? 
Dr. Null, can you comment, please?
    Dr. Null. Yes, ma'am. Standoff detection is clearly 
something that we're very interested in. We're working with 
Science and Technology Directorate within the department, 
especially for explosives detection in standoff manner, and 
some of the newer technologies offer some hope that we will be 
able to do that at some point in time.
    It's very difficult at this day and time to be able to do 
any distance. We can do closer proximity clearly, but by then, 
as you indicate, we have a situation we need to deal with 
immediately. I think that we will get there, but I think we're 
still a little ways away.
    Ms. Watson. Can you evaluate how things are going at LAX?
    Dr. Null. I think LAX is going quite well right now. We are 
having discussions with them with regard to their new in-line 
system. I know we have some issues with regard to the cost of 
that system that we're trying to work through.
    But I in fact was in LAX a few weeks ago meeting with the 
Airport Authority and I think we're progressing well. A lot of 
it just comes down to the funding issue.
    Ms. Watson. If we could have this kind of hearing, Mr. 
Chairman, on the other end it would be, I think, very effective 
in pinpointing--we still have the long lines of congestion and 
I am concerned about that.
    But a young man called me on the Fourth of July, a young 
developer, scientist and son; he said I got the solution. He 
said you could have a very sensitive strip down over the 
entrance to the airports that will detect anything that is of a 
contraband nature.
    That probably means every cart gets stopped. But there was 
technology that he had developed himself. I would like as a 
followup to present to you what he presented to me. That was 
several years ago, but I think let us look at any kind of 
solution that we think might be workable, because as I said, by 
the time the guy got up to the counter it was too late then.
    Dr. Null. Yes, ma'am. We certainly would be more than happy 
to look at the technology.
    Ms. Watson. This is to the chair, I remember, Mr. Chair, 
that many years ago Cardiss Collins did hearings all over the 
country and that was very enlightening, because this is a very, 
very critical issue.
    Certainly we want the Nation's Capital well protected, but 
there are other major airports, particularly on our borders, 
that need this kind of evaluation so that we could be sure we 
can secure our homeland, so thank you.
    Chairman Tom Davis. Thank you. I just note that the check-
in area detection would be a lot easier if you did not have 
those big machines that are up there, that the in-line system 
could do.
    Anything else anyone wanted to add? This has been a great 
hearing. We obviously need to get an in-line system here at 
Dulles as quickly as possible for a lot of reasons. We look 
forward to working with you in the coming months to try to get 
a plan to do that.
    Thank you. The hearing is adjourned.
    [Whereupon, at 11:35 a.m., the committee was adjourned.]
    [The prepared statements of Hon. John L. Mica and Hon. 
Elijah E. Cummings follow:]
[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

[GRAPHIC] [TIFF OMITTED] 

                                 <all>

</pre></body></html>
